     Department of Homeland Security



        FEMA Should Recover $8.5 Million of Public 

      Assistance Grant Funds Awarded to the City of 

       Gulfport, Mississippi, for Debris Removal and 

    Emergency Protective Measures – Hurricane Katrina 





DA-13-10                                      February 2013

                                  OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security




                                        FE B 2 2 2013

MEMORANDUM FOR:                     Maj or P. (Phil) May




FROM.
                                    Assistant Insp cto  eneral
                                    Office of Em rgency Management Oversight

SUBJECT:                            FfMA Should Recover $8.5 Million of Public Assistance
                                    Gront Funds Awarded to the City of Gulfport Missi5sippi,
                                    for Debris Removol ond Emergency Protective Measure,-
                                    Hurricane Katrina
                                    FEMA Disaster Number 1604-DR-MS
                                    Audit Report Number DA-13-10

We audited Public Assistance grant funds awarded to the City of Gulfport, M ississippi
(City) (FIPS Code 047-29700..00) for debris removal and emergency protective measures.
Our audit objective w~s to determine whether the City accounted for and expended
Federal Emergency Management Agency (FEMA) grant funds according to Federal
regu lations ilnd FEMA guidelines.

The City received an award of $233.9 million from the Mississippi Emergency
M~n~gement Agency (State), a FEMA grantee, for damages resulting from Hurricane
Katrina, which occurred in August 2005 The award provided 100 percent FEMA funding
for d~bris remo~al, emergency protective measures, and permanent repairs to build ings
and facilities. Howe~er, we limited the scope of our audit to debris removal and
emergency protective measures (Categorie5 A and B), for which the City was awarded
$86.6 million. Under Categories A and B, the award included 78 large and H small
          1
projects.

We audited six large projects with awards totalin g $54.7 million The audit covered the
period of August 29, 2005, to May 22, 2012, during which the City claimed $54.7 mil lion
of FEMA funds under the six projects (see hhibit, S<::hedule of Projects Audited). At the
time of our audit, the City had completed work on the six projects and submit ted a f inal
claim to the State for project ewenditures.




1 Federal regulations in eftott ~t the tim~ 01 Hurri,.n. KIItt' M "ttne I.rr.e project threshold at $55,500.

                                                                                                               O/l.-B-10
                            OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

We conducted this performance audit between May and November 2012 pursuant to
the InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based upon our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based upon our
audit objective. To conduct this audit, we applied the statutes, regulations, and FEMA
policies and guidelines in effect at the time of the disaster.

We judgmentally selected project costs (generally based on dollar value); interviewed
City, State, and FEMA personnel; reviewed the City’s procurement policies and
procedures; reviewed applicable Federal regulations and FEMA guidelines; and
performed other procedures considered necessary under the circumstances to
accomplish our audit objective. We did not assess the adequacy of the City’s internal
controls applicable to its grant activities because it was not necessary to accomplish our
audit objective. However, we gained an understanding of the City’s method of
accounting for disaster-related costs and its policies and procedures for administering
activities provided for under the FEMA award.


                                   RESULTS OF AUDIT

FEMA should recover $8.5 million of grant funds awarded to the City. Although the City
accounted for FEMA projects on a project-by-project basis as required, we determined
that the City should remit to FEMA $296,792 of interest earned on advanced funds. In
addition, the City’s claim included the following $8,186,346 of questionable costs:

   •	 $949,378 of contract costs in which duplicate funding may exist;
   •	 $5,473,821 of unsupported debris removal costs;
   •	 $1,688,567 for contract work that was not procured according to Federal
      procurement requirements, of which $989,148 is unreasonable and $231,941 is
      not adequately supported; and
   • $74,580 of unauthorized project costs.

Finding A: Interest on Advanced Funds

The City should remit to FEMA $296,792 of interest earned on advanced funds.
According to 44 CFR 13.21(i), grantees and subgrantees shall promptly, but at least
quarterly, remit interest earned (less amounts up to $100 per year for administrative
purposes) on FEMA advances. The City did not remit the interest because City officials
did not believe they were in a financial position to earn interest, although the State


www.oig.dhs.gov                              2 	                                 DA-13-10 

                                              

                            OFFICE OF INSPECTOR GENERAL

                             Department of Homeland Security 


provided the City with advances of $33.6 million for a Category A project because of the
City’s financial situation following Hurricane Katrina. We question $296,792 ($296,992
minus ($100 times 2 calendar years)) of interest the City earned on FEMA advanced
funds.

Finding B: Duplicate Funding

The City’s claim under Project 8852 (debris removal from private property) included
$949,378 of costs that may be covered by insurance. According to Section 312(a) of the
RobertfT.fStaffordfDisasterfRelieffandfEmergencyfAssistancefAct, as amended, FEMA
funds may not be used for expenditures recoverable from another Federal program,
insurance, or any other source. Also, FEMA Policy 9523.13, DebrisfRemovalffromfPrivatef
Property, Section VII(C), requires that State and local governments take reasonable
steps to verify that insurance coverage or any other source of funding does not exist for
the debris removal work accomplished on each piece of private property.

Our review of source documentation, including Right of Entry (ROE) agreements, that
supported 4 ($4,490,209) of the 13 summary invoices billed by the City, identified
$949,378 of costs that may have been covered by insurance proceeds received by the
homeowners. The City provided homeowners with an ROE agreement, which
documented whether homeowners had received insurance or other compensation or
would receive compensation in the future. However, the City did not take required
steps to determine whether the homeowners actually received insurance proceeds or
other funding to cover the debris removal work and, if so, obtain such proceeds to
reduce project costs claimed to FEMA. As a result, the City received FEMA funds for
debris removal that may have been covered by homeowners’ insurance or other
funding. Therefore, we question the $949,378.

We could not review the remaining nine invoices totaling $5,308,963 because the City
could not provide documentation supporting the contractor’s summary invoices.
Therefore, we are questioning those costs as unsupported under finding C. However,
the costs may also be covered by insurance, and therefore, the State and/or FEMA
should carefully review the costs for eligibility should the City provide source
documentation for the invoices in question.

Finding C: Unsupported Costs

The City did not have adequate source documentation to support $5,705,762 of debris
removal contract charges claimed under several projects. Cost principles at OMB
Circular A-87, Attachment A, Section C.1.j, state that a cost must be adequately
documented to be allowed under Federal awards. We question the $5,705,762 of
unsupported costs, as follows:

www.oig.dhs.gov                             3                                  DA-13-10

                           OFFICE OF INSPECTOR GENERAL

                            Department of Homeland Security 




   •	 $77,135 of contract costs under Project 18, where the City paid the contractor
      for the contract amount, net of adjustments per monitoring firm’s review, which
      exceeded actual supporting documentation.

   •	 $231,941 of contract costs under biohazard debris Project 8490, which was the
      result of an overbilling of $212,840 and $19,101 for labor costs. The contractor
      submitted bills totaling $638,521 for 39 days of biohazard debris removal at a
      contract price of $16,372.33 per 12-hour day, or $1,364.36 per hour. We
      question $212,840 of the billed amount because the bill contained charges for
      biohazard debris crews on 13 days when no dumping of biohazard debris
      occurred ($16,372.33/day times 13 days). If the contractor did not dispose of
      biohazardous debris, the use of biohazard debris removal crews would not be
      warranted. The $19,101 overbill occurred because the contractor billed for two
      crews working a full 12-hour day ($32,744.66); however, supporting
      documentation showed that the two crews worked only 5 hours for a total of 10
      hours at a cost of $13,643.60 ($1,364.36/hour times 10 hours). Therefore, the
      City was overbilled $19,101 ($32,744.66 minus $13,643.60).

   •	 $5,396,686 of contract costs under Project 8852 (Debris Removal, North of I-10,
      (ROE)), which included $5,308,963 for nine contractor invoices for which the City
      was unable to provide supporting documentation, as explained under finding B;
      and $87,723 where the City paid the contractor for the contract amount, net of
      adjustments per the monitoring firm’s review, which exceeded actual supporting
      documentation.

Finding D: Contracting Procedures

The City did not comply with Federal procurement requirements when awarding a unit
price contract under Project 8490 for biohazard debris removal for which it claimed
$1,688,567. Federal procurement guidance at 44 CFR, Part 13, requires the City, among
other things, to—

   •	 Conduct all procurement transactions in a manner providing full and open
      competition (44 CFR 13.36(c)), though noncompetitive proposals may be used
      when the public exigency or emergency for the requirement will not permit a
      delay resulting from competitive solicitation. (44 CFR 13.36(d)(4)(i)(B))
   •	 Perform a cost or price analysis in connection with every procurement action. A
      cost analysis will be necessary when adequate price competition is lacking, and
      for sole source procurement. (44 CFR 13.36(f)(1))




www.oig.dhs.gov                            4	                                 DA-13-10

                            OFFICE OF INSPECTOR GENERAL

                             Department of Homeland Security 


   •	 Negotiate profit as a separate element of the price for each contract in which
      there is no price competition. (44 CFR 13.36(f)(2))
   •	 Along with the grantee (the State), maintain a contract administration system
      which ensures that contractors perform in accordance with terms, conditions,
      and specifications of contracts. (44 CFR 13.36(b)(2))

In addition, FEMA 322, PublicfAssistancefGuide, October 1999, p. 39, specifies that—

   •	 Contracts must be of reasonable cost, generally must be competed, and must
      comply with Federal, State, and local procurement standards.
   •	 Noncompetitive proposals should be used only when the award of a contract is
      not feasible under small purchase procedures, sealed bids, or competitive
      proposals, and one of the following circumstances applies: (1) the item is
      available only from a single source, (2) there is an emergency requirement that
      will not permit a delay, (3) FEMA authorizes noncompetitive proposals, or
      (4) solicitation from a number of sources has been attempted and competition is
      determined to be inadequate.

FEMA may grant exceptions to Federal procurement requirements to subgrantees on a
case-by-case basis (44 CFR 13.6(c)).

Project 8490 authorized the collection, hauling, and disposal of pork bellies and frozen
chickens that washed ashore from the Mississippi State Port during the storm. The City
awarded a noncompetitive contract for removal of the biohazard debris, which was
justified because of the threat to public health and safety posed by the debris. To
perform the contract work, the City issued change orders to an existing contract with its
primary debris removal contractor. However, the City did not conduct a cost or price
analysis to determine the reasonableness of the contractor’s price or negotiate profit as
a separate element of the price. A cost or price analysis decreases the likelihood of
unreasonably high or low prices, contractor misinterpretations, and errors in pricing
relative to the scope of work.

The City did not conduct a cost or price analysis because it believed that the emergency
circumstances negated the need to follow Federal procurement regulations. Also, the
State did not ensure that the City was aware of Federal regulations and monitor City
activities under the project. Federal regulations require the State, as the grantee, to
ensure that subgrantees are aware of requirements imposed on them by Federal
regulations and to monitor subgrant activity to ensure compliance with applicable
Federal requirements (44 CFR 13.37(a)(2) and 44 CFR 13.40(a)). Finally, the City should
determine who is legally responsible for the biohazard debris removal of the pork bellies




www.oig.dhs.gov                             5	                                  DA-13-10

                            OFFICE OF INSPECTOR GENERAL

                             Department of Homeland Security 


and frozen chickens and seek reimbursement of cleanup costs from the responsible
party.

Because the City did not follow Federal procurement requirements, FEMA has no
assurance that the $1,688,567 the City paid and claimed for the contract work was fair
and reasonable. In the case of the haul/disposal fees under the contract, we
determined that the $1,050,046 of costs claimed for such activity were unreasonably
high and have questioned $989,148 under finding E. Additionally, we questioned
$231,941 of the contract costs as unsupported under finding C. Therefore, we question
a net of $467,478 under this finding.

Finding E: Unreasonable Costs

The City claimed $989,148 in unreasonable costs for the haul/disposal portion of its
contract under Project 8490 (Biohazard Debris Removal). This occurred because the City
did not follow Federal procurement procedures and perform a cost or price analysis
when costs data were available from another City project (Project 10565), under which
identical work was performed for a significantly lower cost.

The FEMA PublicfAssistancefGuide (FEMA 322, October 1999, pp. 33-34) states that a
cost must be reasonable and necessary to accomplish the work. It further states that a
cost is reasonable if, in its nature and amount, it does not exceed that which would be
incurred by a prudent person under the circumstances prevailing at the time the
decision was made to incur the cost. In other words, a reasonable cost is a cost that is
both fair and equitable for the type of work performed. The guide states that the use of
historical documentation for similar work, and average costs for similar work in the
area, are among the methods through which reasonable costs can be established.

The City claimed $1,050,046 of contract costs under Project 8490 for the hauling and
disposal of pork bellies and frozen chickens that washed ashore from the Mississippi
State Port during the storm. By comparing work under a separate City project (Project
10565, Biohazard Removal/Disposal),which was performed 6 weeks earlier and which
FEMA deemed to be reasonable, we determined that the City paid an unreasonable
amount (17 times greater) of $989,148 for the work. The haul/disposal fees portion of
Project 8490, which can logically be compared with Project 10565, is for identical work
during the same period. Therefore, we question the $989,148 of unreasonable costs, as
calculated and shown in table 1.




www.oig.dhs.gov                            6                                   DA-13-10

                                 OFFICE OF INSPECTOR GENERAL

                                  Department of Homeland Security 


                       Table 1. Recalculation of Haul/Disposal Fees in 

                     Project 8490 Based on Cost Factors in Project 10565 


                                                                             Unit of       Total
           Scenario             Loads    Pounds          Tons       Rate     Pricing   Haul/Disposal
           As Billed
        (Project 8490)
        Haul/Disposal              71   2,019,320       1,009.66      $.52   pound        $1,050,046

     Comparison Analysis
       (Project 10565)
             Haul                  71   2,019,320       1,009.66   $360.00    load           $25,560
           Disposal                71   2,019,320       1,009.66    $35.00     ton           $35,338
            Total                                                                            $60,898

   Difference (factor of 17+)
                                                                                            $989,148

Finding F: Unauthorized Project Costs

The City’s claim under Project 18 included $74,580 of unauthorized project costs. The
FEMAfPublicfAssistancefGuidef(FEMA Public Assistance Guide 321, October 2001, p. 24)
states, that if a change in the scope of work is identified, “[t]he applicant should contact
the State to ensure that proper guidelines for documenting any additional costs are
followed.” Project 18 authorized the removal and disposal of debris. However, the
City’s final claim under the project included $74,580 of costs for personal protective
equipment, water and sewer line capping, and air monitoring. Neither FEMA nor the
State included these items in the authorized scope of work on the final version of the
project worksheet. Rather, the project worksheet authorized debris removal costs
based on a cubic yards per unit price. In addition, the City did not have documentation
to indicate that it contacted the State to include these items in the project’s scope of
work. Therefore, we question $74,580 of unauthorized project costs.


                                        RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region IV:

Recommendation #1: Require the City to remit $296,792 of interest earned on FEMA
advanced funds, which could be put to better use (finding A).

Recommendation #2: Deobligate $949,378 of funding under Project 8852 for costs that
may have been covered by homeowners’ insurance or other funding, and, in



www.oig.dhs.gov                                     7                                        DA-13-10

                            OFFICE OF INSPECTOR GENERAL

                             Department of Homeland Security 


conjunction with the State and the City, conduct a review of insurance proceeds
received by the homeowners (finding B).

Recommendation #3: Disallow $5,705,762 of unsupported contract costs under
Projects 18 ($77,135), 8490 ($231,941), and 8852 ($5,396,686) (finding C).

Recommendation #4: Disallow $467,478 of ineligible contract costs under Project 8490
unless FEMA grants the City an exception for all or part of the costs as provided for in
44 CFR 13.6(c) and Section 705(c) of the RobertfT.fStaffordfDisasterfRelieffandf
EmergencyfAssistancefAct, as amended (finding D).

Recommendation #5: Instruct the State to reemphasize to the subgrantees their
requirement to comply with Federal procurement regulations and FEMA guidelines
when acquiring goods and services under the FEMA award (finding D).

Recommendation #6: Reemphasize to the State the requirement to ensure that
subgrantees are aware of requirements imposed on them by Federal statutes and
regulations (44 CFR 13.37(a)(2)) and to monitor subgrantee activity for compliance with
applicable Federal requirements (44 CFR 13.40(a)) (finding D).

Recommendation #7: Require the City to determine who is legally liable for the
removal of the biohazard debris under Project 8490 and seek reimbursement of cleanup
costs from such party (finding D).

Recommendation #8: Disallow $989,148 of unreasonable contract costs under Project
8490 (finding E).

Recommendation #9: Disallow $74,580 of unauthorized contract costs under Project 18
(finding F).


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with City, State, and FEMA officials during our
audit. We also provided a draft report in advance to these officials and discussed it at
the exit conference held on November 29, 2012. City officials agreed with our findings
and recommendations.

Within 90 days of the date of this memorandum, please provide our office with a
written response that includes your (1) agreement or disagreement, (2) corrective
action plan, and (3) target completion date for each recommendation. Also, please
include responsible parties and any other supporting documentation necessary to

www.oig.dhs.gov                             8                                   DA-13-10

                            OFFICE OF INSPECTOR GENERAL

                             Department of Homeland Security 


inform us about the current status of the recommendation. Until your response is
received and evaluated, the recommendations are considered open and unresolved.

Consistent with our responsibility under the InspectorfGeneralfAct,fwe will provide
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Major contributors to this report were David Kimble, Eastern Region Audit Director;
Larry Arnold, Audit Manager; John Skrmetti, Auditor-in-charge; James Miller, Auditor;
Sharonda Toney, Auditor; and Emma Peyton, Auditor.

Please call me with any questions at (202) 254-4100, or your staff may contact David
Kimble, Eastern Region Audit Director, at (404) 832-6702.




www.oig.dhs.gov                            9                                  DA-13-10

                                    OFFICE OF INSPECTOR GENERAL

                                      Department of Homeland Security 



                                                                                                  EXHIBIT

                                  Schedule of Projects Audited 

                                August 29, 2005, to May 22, 2012 

                                   City of Gulfport, Mississippi 

                       Debris Removal and Emergency Protective Measures 

                               FEMA Disaster Number 1604-DR-MS 



                                                                                     Funds Put
Project                                     Amount        Amount        Questioned   To Better
Number             Project Scope            Awarded       Claimed         Costs         Use        Finding
                                                                           $77,135            -       C
  18      Debris Removal and Disposal      $33,730,473   $33,773,803        74,580            -       F
          Debris Monitoring for Citywide
 7115     ROW Debris Clearance               8,682,990     8,682,990             -            -
                                                                           231,941            -       C
          Biohazard Debris Removal From                                    467,478            -       D
 8490     South of Tracks                    1,688,567     1,688,567       989,148            -       E
          Debris Removal From North of                                     949,378            -       B
 8852     I-10 (Private Property—ROE)        9,799,172     9,799,172     5,396,686            -       C
          Emergency Pest Control
 9037     Measures for City                   340,081        340,000             -            -
          Public Works Labor & Force
          Account Equipment—
10429     Oct ’05–June ‘06                    418,889        418,988             -          -
          Interest Earned                           -              -             -   $296,792         A
 Total                                     $54,660,172   $ 54,703,520   $8,186,346   $296,792




www.oig.dhs.gov                                    10                                             DA-13-10
                                OFFICE OF INSPECTOR GENERAL

                                 Department of Homeland Security 



                                                                              Appendix


                                      Report Distribution

Department of Homeland Security
Secretary
Chief Financial Officer
Under Secretary for Management
Acting Chief Privacy Officer
Audit Liaison, DHS

Federal Emergency Management Agency
Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Chief Procurement Officer
Director, Risk Management and Compliance
Audit Liaison, FEMA Region IV
Audit Liaison, FEMA (Job Code G-12-039)

State
Executive Director, Mississippi Emergency Management Agency
State Auditor, Mississippi

Subgrantee
Director of Administration and Finance, City of Gulfport

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress
Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform




www.oig.dhs.gov                            11                           DA-13-10

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
